<html>
<title> - MISSING WEAPONS AT THE NATIONAL PARK SERVICE: MISMANAGEMENT AND LACK OF ACCOUNTABILITY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                 MISSING WEAPONS AT THE NATIONAL PARK 
                  SERVICE: MISMANAGEMENT AND LACK OF 
                   ACCOUNTABILITY
=======================================================================



                        JOINT OVERSIGHT HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 of the

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                                and the

       SUBCOMMITTEE ON PUBLIC LANDS AND ENVIRONMENTAL REGULATION

                                 of the

                     COMMITTEE ON NATURAL RESOURCES

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 2, 2013

                               __________

                           Serial No. 113-54

             (Committee on Oversight and Government Reform)

                               __________

                           Serial No. 113-39

                    (Committee on Natural Resources)


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                   http://naturalresources.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
82-717                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              MARK POCAN, Wisconsin
DOC HASTINGS, Washington             TAMMY DUCKWORTH, Illinois
CYNTHIA M. LUMMIS, Wyoming           ROBIN L. KELLY, Illinois
ROB WOODALL, Georgia                 DANNY K. DAVIS, Illinois
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

    Subcommittee on National Security, Homeland Defense and Foreign 
                               Operations

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                JOHN F. TIERNEY, Massachusetts 
JOHN J. DUNCAN, JR., Tennessee           Ranking Minority Member
JUSTIN AMASH, Michigan               CAROLYN B. MALONEY, New York
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
TREY GOWDY, South Carolina           JACKIE SPEIER, California
CYNTHIA M. LUMMIS, Wyoming           PETER WELCH, Vermont
ROB WOODALL, Georgia                 MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan
      

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            PETER A. DeFAZIO, OR, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Louie Gohmert, TX                    Frank Pallone, Jr., NJ
Rob Bishop, UT                       Grace F. Napolitano, CA
Doug Lamborn, CO                     Rush Holt, NJ
Robert J. Wittman, VA                Raul M. Grijalva, AZ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Glenn Thompson, PA                       CNMI
Cynthia M. Lummis, WY                Niki Tsongas, MA
Dan Benishek, MI                     Pedro R. Pierluisi, PR
Jeff Duncan, SC                      Colleen W. Hanabusa, HI
Scott R. Tipton, CO                  Tony Cardenas, CA
Paul A. Gosar, AZ                    Steven A. Horsford, NV
Raul R. Labrador, ID                 Jared Huffman, CA
Steve Southerland, II, FL            Raul Ruiz, CA
Bill Flores, TX                      Carol Shea-Porter, NH
Jon Runyan, NJ                       Alan S. Lowenthal, CA
Mark E. Amodei, NV                   Joe Garcia, FL
Markwayne Mullin, OK                 Matt Cartwright, PA
Chris Stewart, UT                    Vacancy
Steve Daines, MT
Kevin Cramer, ND
Doug LaMalfa, CA
Jason T. Smith, MO

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
                 Penny Dodge, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON PUBLIC LANDS AND ENVIRONMENTAL REGULATION

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Niki Tsongas, MA
Louie Gohmert, TX                    Rush Holt, NJ
Doug Lamborn, CO                     Madeleine Z. Bordallo, GU
Paul C. Broun, GA                    Gregorio Kilili Camacho Sablan, 
Tom McClintock, CA                       CNMI
Cynthia M. Lummis, WY                Pedro R. Pierluisi, PR
Scott R. Tipton, CO                  Colleen W. Hanabusa, HI
Raul R. Labrador, ID                 Steven A. Horsford, NV
Mark E. Amodei, NV                   Carol Shea-Porter, NH
Steve Daines, MT                     Joe Garcia, FL
Kevin Cramer, ND                     Matt Cartwright, PA
Doug LaMalfa, CA                     Vacancy
Jason T. Smith, MO                   Peter A. DeFazio, OR, ex officio
Doc Hastings, WA, ex officio


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 2, 2013...................................     1

                               WITNESSES

Mr. Robert A. Knox, Assistant Inspector General for 
  Investigations, Office of Inspector General, U.S. Department of 
  the Interior
    Oral Statement...............................................     5
    Written Statement............................................     7
The Hon. Jonathan B. Jarvis, Director, National Park Service, 
  U.S. Department of the Interior, Ms. Kim A. Thorsen, Deputy 
  Assistant Secretary for Public Safety, Resource Protection, and 
  Emergency Services, U.S. Department of the Interior, and Ms. 
  Teresa Chambers, Chief of the United States Park Police Force, 
  National Park Service, U.S. Department of the Interior
    Oral Statement...............................................    10

                                APPENDIX

The Honorable Jason Chaffetz, a Member of Congress from the State 
  of Utah, Opening Statement.....................................    40
The Honorable John F. Tierney, a Member of Congress from the 
  State of Massachusetts, Opening Statement......................    43
U.S. Department of the Interior, National Park Service, Letter to 
  Representatives Rob Bishop and Jason Chaffetz..................    45


MISSING WEAPONS AT THE NATIONAL PARK SERVICE: MISMANAGEMENT AND LACK OF 
                             ACCOUNTABILITY

                              ----------                              


                         Friday, August 2, 2013

                  House of Representatives,
                 Subcommittee on National Security,
  Committee on Oversight and Government Reform, joint with 
        the Subcommittee on Public Lands and Environmental 
                Regulation, Committee on Natural Resources,
                                                   Washington, D.C.
    The subcommittees met, pursuant to call, at 9:00 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the Subcommittee on National Security] presiding.
    Present from the Subcommittee on National Security: 
Representatives Chaffetz, Duncan, Bentivolio, and Tierney.
    Present from the Subcommittee on Public Lands and 
Environmental Regulation: Representatives Bishop, Tipton, 
Smith, Southerland, Grijalva, Tsongas, and Shea-Porter.
    Also Present: Representative Norton.
    Staff Present from the Committee on Oversight and 
Government Reform: Brian Blase, Senior Professional Staff 
Member; Molly Boyl, Parliamentarian; Daniel Bucheli, Assistant 
Clerk; Caitlin Carroll, Deputy Press Secretary; Linda Good, 
Chief Clerk; Mitchell S. Kominsky, Counsel; Mark D. Marin, 
Director of Oversight; Ashok M. Pinto, Chief Counsel, 
Investigations; Sang H. Yi, Professional Staff Member; Devon 
Hill, Minority Research Assistant; Julia Krieger, Minority New 
Media Press Secretary; Elisa LaNier, Minority Deputy Clerk; and 
Brian Quinn, Minority Counsel.
    Mr. Chaffetz. The committee will come to order.
    I would like to begin this hearing by stating the Oversight 
and Government Reform Committee's mission statement.
    We exist to secure two fundamental principles: First, 
Americans have a right to know that the money Washington takes 
from them is well-spent. Second, Americans deserve an 
efficient, effective government that works for them. Our duty 
on the Oversight and Government Reform Committee is to protect 
these rights.
    Our solemn responsibility is to hold government accountable 
to taxpayers, because taxpayers have a right to know what they 
get from their government. We will work tirelessly, in 
partnership with citizen watchdogs, to deliver the facts to the 
American people and bring genuine reform to the Federal 
bureaucracy.
    This is the mission of the Oversight and Government Reform 
Committee.
    We appreciate you being here in a joint effort with the 
Natural Resources Committee to conduct a very important 
oversight hearing today entitled, ``Missing Weapons at the 
National Park Service: Mismanagement and Lack of 
Accountability.''
    I would also like to welcome Mr. Grijalva, who is here and 
joining us on the dais. I know that Mr. Tierney and Mr. Bishop 
of Utah, my colleague also involved in these two committees, 
will be joining us here shortly.
    I am pleased to hold today's hearing jointly with my friend 
and gentleman from Utah, Representative Bishop. He is the 
chairman of the House Committee on Natural Resources 
Subcommittee on Public Lands and Environmental Regulation. And 
I look forward to working with him on an ongoing basis on these 
issues.
    Today's proceedings result from a need to further address 
questions and concerns raised in a June 27th report from this 
year issued by the U.S. Department of Interior's Office of 
Inspector General entitled, ``Review of U.S. Park Police 
Weapons Accountability Program.''
    In the report, the OIG made some very serious charges, 
including finding insufficient: ``accountability, accuracy, and 
oversight'' of the U.S. Park Police's firearms program. During 
the course of the OIG's investigation, the OIG found: 
``credible evidence of conditions that would allow for theft 
and misuse of firearms and the ability to conceal the fact if 
weapons were missing.''.
    Moreover, despite requirements to maintain an accurate 
firearms inventory, the OIG found that U.S. Park Police 
firearms inventory records were inaccurate and failed to 
account for hundreds of firearms. If these findings are 
accurate, the lack of accountability is completely 
unacceptable.
    Given the OIG's glaring findings about the U.S. Park 
Police's lack of accountability for their weapons program, I am 
also interested to learn whether the ammunition used by the 
U.S. Park Police is properly accounted for.
    The Subcommittee on National Security previously conducted 
an oversight hearing on April 25th of this year entitled, 
``Oversight of the Federal Government's Procurement of 
Ammunition,'' in which we found that the Federal Government, in 
some cases, has not procured ammunition efficiently or 
effectively.
    Based on the seriousness of the charges in the OIG report, 
the findings warrant further examination where the report fell 
short. There are a number of questions that would be helpful to 
explain the findings. Are there examples where U.S. Park Police 
weapons were actually stolen or misused? How did the OIG arrive 
at the ``hundreds of weapons used'' number? Were simple 
typographical errors or poor data entry the main cause of the 
unaccounted firearms? These are all legitimate questions.
    As a result, today's hearing provides an opportunity to 
discuss the findings by the OIG and to assess the extent of 
accountability issues within the United States Park Police.
    It is also important to further examine the weapons 
procurement process. The OIG site reviews of U.S. Park Police's 
field office armories discovered approximately 1,400: 
``extra,'' weapons, with a force of only 640 officers. These 
extra weapons consisted of 477 military-style automatic and 
semiautomatic weapons.
    According to the OIG: ``We also discovered a number of 
weapons that, according to USPP officials, fulfilled no 
operational need.'' It is my understanding that the 
undetermined number were awaiting destruction. We need to 
discuss that.
    I am also concerned about OIG's finding regarding senior 
management's supervision of the weapons program, specifically 
that; ``staff at all levels, from the firearms program managers 
to their employees, had no clear idea of how many weapons they 
maintained due to their incomplete and poorly managed inventory 
controls.''
    Moreover, the OIG reported that firearms managers: 
``accepted verbal assurances that firearms inventories were 
completed correctly rather than taking personal responsibility 
for accuracy.'' Unverified verbal assurances about the accuracy 
of the Park Police firearms inventory is simply not tolerable.
    The reported lack of accountability over the U.S. Park 
Police weapons program has been documented as a longstanding 
issue, I believe starting in 2003. But certainly in 2008 and 
2009, the OIG found a lack of oversight of the weapons 
accountability program, but the problems persist still today.
    One of the main reasons that we are gathered here today and 
that I called this hearing, in conjunction with these other 
Members, is that this continues to evidently be an ongoing 
problem. Unfortunately, after the reports issued in 2008 and 
2009, it does not appear, at least from the surface, that these 
problems were resolved. And we are talking about firearms. It 
is very important, and that is why we are here again today.
    I want to take a moment to emphasize that the hard work and 
dedication of the Park Police officers is greatly appreciated. 
We have great men and women who dedicate their lives, put 
themselves on the line in support of a very patriotic duty in 
serving their Nation and protecting some of our Nation's 
greatest assets. We need to ensure that our law enforcement 
officers are properly trained and equipped to efficiently and 
effectively do their jobs.
    That said, the vandalism that recently occurred at the 
Lincoln Memorial, the National Cathedral, and the Smithsonian 
Castle all raise concerns about whether taxpayer dollars are 
being spent effectively in light of these shortcomings. I find 
it hard to believe that, given the prominence of the Lincoln 
Memorial, that we don't have somebody 24/7 watching, guarding, 
taking care of the Lincoln Memorial, that somebody could come 
and do that and then simply be able to walk away.
    I am particularly interested to learn what the U.S. Park 
Police is doing to ensure that our national monuments will not 
be defaced, vandalized, or become prime targets of terrorism.
    I look forward to hearing from all the witnesses today. And 
today's hearing will focus on the need for proper inventory 
procedures, improved oversight of firearms management, and we 
will be touching on the recent defacing of some of our Nation's 
best assets.
    The committee seeks to ensure that the U.S. Park Police 
appropriately addresses the OIG recommendations outlined in the 
June 27th, 2013, report.
    Again, I thank you all for being here.
    And I greatly appreciate the work I do with my ranking 
member, the gentleman from Massachusetts, Mr. Tierney. And I 
now recognize him for 5 minutes.
    Mr. Tierney. Thank you, Mr. Chairman.
    In the interest of time this morning, I just ask unanimous 
consent that my opening remarks be placed upon the record.
    Mr. Chaffetz. Without objection, absolutely. We appreciate 
that.
    Mr. Chaffetz. Mr. Grijalva, we appreciate you being----
    Mr. Tierney. Hopefully, we set a trend.
    Mr. Chaffetz. Hopefully, we set a trend, yes.
    We appreciate your being here today.
    Mr. Grijalva from Arizona is the ranking member, Public 
Lands and Environmental Regulation Subcommittee in the Natural 
Resources Committee.
    We appreciate you being here today. I now recognize you.
    Mr. Grijalva. Thank you, Mr. Chairman.
    And I think the problems identified in the Interior 
Department's Office of Inspector General require serious 
consideration. We should try to understand the allegations in 
the report and not overstate or politicize them.
    I would like to acknowledge that the Fraternal Order of 
Park Police has serious concerns with the methodology used by 
the Inspector General and the allegations made in the report.
    The title of this hearing, ``Missing Weapons at the 
National Park Service,'' that is--there is no reason to believe 
that weapons are missing or that weapons were ever in the hands 
of unauthorized personnel. An Interior Department task force 
was able to account for all weapons, with the exception of a 
few weapons assigned to officers who are overseas or on 
extended leave. The Department has determined that 98 percent 
of its weapons were already in the official system.
    And there is a whole litany of issues, but following the 
trend set by Mr. Tierney----
    Mr. Tierney. Almost.
    Mr. Grijalva. Almost following the trend set by Mr. 
Tierney, if I may, Mr. Chairman, if there is no objection, 
enter the letter from the United States Park Police Fraternal 
Order as part of the record for this hearing?
    Mr. Chaffetz. Without objection, so ordered.
    Mr. Grijalva. Thank you very much.
    Mr. Grijalva. The rest of my statements, which were 
eloquent and well thought out, will be submitted for part of 
the record. Thank you.
    Mr. Chaffetz. I thank the gentleman.
    Mr. Chaffetz. All Members will have 7 days to submit 
opening statements for the record.
    Mr. Chaffetz. We will now recognize our first and only 
panel.
    Ms. Kim Thorsen is the Deputy Assistant Secretary for 
Public Safety Resource Protection and Emergency Services at the 
United States Department of Interior. The Honorable Jonathan B. 
Jarvis is the Director of the National Park Service. Ms. Teresa 
Chambers is the Chief of the United States Park Police. And Mr. 
Robert Knox is the Assistant Inspector General for 
Investigations with the Office of Inspector General for the 
United States Department of Interior.
    We again appreciate all of you being here side by side to 
have this discussion.
    Pursuant to committee rules, all witnesses will be sworn 
before they testify.
    If you will please stand and raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Thank you. You may be seated.
    Let the record reflect that all witnesses answered in the 
affirmative.
    In order to allow time for discussion, we would appreciate 
you limit your testimony to 5 minutes. My understanding is we 
have a consolidated opening statement, which we greatly 
appreciate.
    But we will now recognize Mr. Knox first for his opening 
statement.

                       WITNESS STATEMENTS

                  STATEMENT OF ROBERT A. KNOX

    Mr. Knox. Good morning, Chairman Chaffetz and members of 
the subcommittees. Thank you for the opportunity to testify 
today about a recent Office of Inspector General report on the 
accountability and accuracy of the United States Park Police 
firearms inventory.
    In short, we found ample evidence that United States Park 
Police's firearms management requires immediate attention to 
address the multitude of problems we found, which range from 
fundamental errors in recordkeeping to glaring nonfeasance by 
senior command officers.
    We initiated our review after receiving an anonymous 
complaint. We initially set out to determine if the United 
States Park Police could account for all military-style weapons 
in its inventory, whether the United States Park Police had 
failed to perform inventories due to missing weapons, and 
whether officers may have used United States Park Police 
weapons for their personal use.
    Our efforts to definitively address the allegations were 
hindered by the inability of the United States Park Police 
property and firearms custodians to provide a reliable baseline 
inventory and accounting of firearms. The conditions of the 
United States Park Police inventory were such that would allow 
for theft and misuse of firearms and the ability to conceal any 
missing weapons.
    Having found the firearms inventory program in disarray, we 
discontinued our efforts to prove or disprove the complainant's 
allegations and changed our approach to focus on the overall 
management of the United States Park Police firearms inventory 
program.
    Following a consistent history of inaction and indifference 
on the part of United States Park Police leadership and 
management at all levels, we again found that the basic tenets 
of property management and supervisory oversight were missing 
in their most fundamental forms. Commanders, up to and 
including the chief of police, have a lackadaisical attitude 
toward firearms management. We found evidence which indicates 
this indifference is a product of years of inattention to 
administrative detail and management principles in their most 
basic form.
    In 2008 and in 2009, the Office of Inspector General 
conducted reviews that included aspects of United States Park 
Police operations, including firearms inventory controls. In 
our 2008 report, we had a recommendation regarding property 
management. In 2009, we focused on firearms inventory controls 
for all law enforcement programs at the Department of the 
Interior, which included the United States Park Police. At that 
time, we found and reported on strikingly similar conditions as 
we note in our current report: firearms custodians were unaware 
of the number of guns in their inventory or of the origin of 
these guns, and that guns physically present were not listed on 
the inventory.
    In the end, we have little confidence that the United 
States Park Police has the managerial commitment to implement a 
professionally responsible firearms management program without 
direct and frequent oversight from the National Park Service, 
the Office of Law Enforcement and Security, and the Office of 
Inspector General.
    Among the 10 recommendations we make in our report is a 
recommendation to initiate quarterly firearms inventories and 
provide the Office of Inspector General with the results. We 
intend to conduct a series of future reviews and inspections to 
ensure that the United States Park Police has implemented our 
recommendations and that they maintain the level of 
accountability expected of a law enforcement entity the size 
and stature of the United States Park Police.
    Chairman Chaffetz, this concludes my testimony today. I 
would be happy to answer any questions you or other members of 
the subcommittees may have.
    Mr. Chaffetz. Thank you. Appreciate that.
    [The prepared statement of Mr. Knox follows:]
    [GRAPHIC] [TIFF OMITTED] 82717.001
    
    [GRAPHIC] [TIFF OMITTED] 82717.002
    
    [GRAPHIC] [TIFF OMITTED] 82717.003
    
    Mr. Chaffetz. My understanding is we have a consolidated 
opening statement. Would that be you, Mr. Jarvis?
    Mr. Jarvis. Yes.
    Mr. Chaffetz. You are now recognized for 5 minutes.

            STATEMENT OF THE HON. JONATHAN B. JARVIS

    Mr. Jarvis. Okay.
    Chairman Chaffetz, Ranking Members Grijalva and Tierney, 
and members of the committee, thank you for the invitation to 
appear today before you to discuss the findings of the 
Inspector General's firearms accountability within the United 
States Park Police.
    My name is John Jarvis, and I am the Director of the 
National Park Service. And I would like to submit our full 
statement for the record and summarize, really, our views here.
    The U.S. Park Police is the Nation's oldest uniformed 
Federal law enforcement agency. The Park Police provides law 
enforcement services to designated areas within the National 
Park Service, predominantly in Washington, D.C., New York, and 
San Francisco. The members of the Park Police are professional 
police officers and dedicated public servants who help us 
protect millions of visitors each year and protect some of our 
most valued national icons, including the Washington Monument, 
the Jefferson Memorial, the Statue of Liberty, and the Golden 
Gate Bridge.
    On June 27th, 2013, the Inspector General issued its review 
of Park Police weapons accountability. The Inspector General's 
review raised serious, significant concerns regarding Park 
Police firearms management.
    The accountability of weapons used by our law enforcement 
personnel is of critical importance, and we take the issues 
raised here very, very seriously. The IG report provided a 
number of important recommendations to address those issues, 
and we appreciate the IG's efforts. We are committed to 
implementing these recommendations, which will improve the 
accountability in this critical area.
    In the last 30 days since the issuance of the IG's report, 
we have taken immediate actions to address the IG's 
recommendations. The first priority was to conduct a thorough 
physical inventory of all government-owned firearms in Park 
Police custody, in accordance with Recommendation 3 from the IG 
report.
    To conduct this physical inventory, we created a team of 
senior officials from the National Park Service and the 
Department's Office of Law Enforcement and Security to 
personally contact all officers within the Park Police and to 
personally inspect every Park Police firearm, whether issued to 
an officer or secured in a Park Police facility. The team 
visited Park Police facilities in San Francisco, New York, and 
Washington, D.C. With the exception of three officers who are 
currently either deployed overseas on a military assignment or 
on extended leave, the team has met with each police officer.
    The team has ensured that each inspected firearm has been 
entered into and tracked in the Department's new property 
accountability system. The initial assessment of the team is 
that approximately 98 percent of the physical inventory of 
firearms in the custody of the U.S. Park Police were previously 
entered into this system. We are continuing our efforts to 
complete the inventory, including any reconciliation with 
existing records.
    The team is also reviewing the Park Police's approach to 
administrative oversight, training, and coordination. We are 
committed to ensuring the members of the Park Police maintain 
the highest standard of accountability with its firearms 
inventories.
    With regard to the other recommendations from the IG 
report, we either have already addressed or are in the process 
of addressing each one of them. For example, we are in the 
process of reviewing all Park Police guidance to confirm that 
it complies with Park Service and departmental regulations, 
policies, and procedures. The Park Police has ceased using 
informal property accountability systems, and we have 
transitioned all of the firearms to our new property 
accountability system. And the Park Police now has a schedule 
to ensure quarterly inventories of all firearms. And the Chief 
of Park Police will personally approve all firearms purchases. 
That is already in place.
    In addition, the National Park Service has asked the Park 
Police to detail all the work that has been done to date on all 
of the IG recommendations and the actions planned to 
successfully address the ones that have not been completed.
    The Department's Office of Law Enforcement and Security, 
which is responsible for policy development, coordination, 
evaluation, and support of the Department's programs concerning 
law enforcement, will work with the National Park Service and 
the Park Police to provide additional oversight. The office 
periodically audits the Department's bureaus for compliance 
with the Department of Law Enforcement policies. Currently, the 
office is conducting a program compliance assessment on bureau 
firearm programs.
    We want to assure the committees that the Department, the 
NPS, and the Park Police take very seriously the accountability 
of weapons used by our law enforcement personnel. We will work 
together to monitor compliance with the IG's direction on this 
matter.
    Thank you for your attention to this important issue. We 
are happy to answer any questions that you may have.
    Mr. Chaffetz. Thank you. I appreciate that.
    Mr. Chaffetz. Normally when we schedule a hearing at 9 
o'clock in the morning, we are in safe territory until 10:30 or 
so. Today being an exceptional day, Members are advised that 
there is a vote on the floor. It has 13 minutes on the clock. 
Given that necessity and priority, this committee is going to 
stand in recess until the conclusion of the votes. And as soon 
as we have Members back in appropriate numbers, we will resume 
this hearing.
    We are guessing that that is an hour and a half, an hour 
and 15 minutes. It is certainly not any sooner than, say, 
10:30. We will resume no sooner than 10:30, but when we have 
our votes and we have Members back, we will resume.
    This committee stands in recess until then.
    [Recess.]
    Mr. Chaffetz. The committee will come to order.
    Thank you. We appreciate the time as we had to take to do 
voting. And there will be voting later on, as well.
    I will now recognize myself for 5 minutes.
    The OIG, Inspector General, has issued a report. Ms. 
Thorsen, Mr. Jarvis, Chief Chambers, do any of you take issue 
with any of the findings in that report?
    Mr. Jarvis. I will start.
    We appreciate the IG's report, and we take all 10 
recommendations--they are spot-on, and we are taking every one 
of them seriously.
    Mr. Chaffetz. But are any of the findings--do you take any 
issue with any of the findings? I appreciate your 
implementation of the recommendations; we are going to talk 
about that. But any of their findings, did you take issue with 
any of those?
    Mr. Jarvis. Well, their findings indicated a snapshot, 
essentially a photograph, of the conditions of inventory of 
weapons at the Park Police facilities at that moment. I 
consider them accurate, but they do not indicate the real 
behind-the-scenes. They backed out and said, go do an 
inventory. And that is what we are doing now.
    Mr. Chaffetz. They took a snapshot in 2008, and they took 
one in 2009. We had similar problems and challenges. Were those 
accurate back then?
    Mr. Jarvis. I am not that familiar with those reports 
because I was not in this role at that time.
    Mr. Chaffetz. And I guess that is one of the concerns, is 
that when the Inspector General offers recommendations, they 
take snapshots, we worry that some report gets put on some 
shelf. I think that is in part why we are here today, is the 
repetitive nature of these challenges.
    Chief Chambers, according to the National Park Service 
Handbook 44, an inventory is supposed to be taken twice a year. 
Does that happen?
    Chief Chambers. Yes, sir, it does.
    Mr. Chaffetz. Did you sign this memo of August 31st saying: 
``I certify that all weapons inventories for which I am 
responsible have been completed and all weapons records have 
been reconciled''?
    Chief Chambers. I did, sir.
    Mr. Chaffetz. What did you base that on?
    Chief Chambers. A number of conversations with folks in the 
chain of command, including the firearms custodian himself.
    Mr. Chaffetz. So merely conversations? Did you ever review 
any of the records? Did you ever look at any of the physical 
material?
    Chief Chambers. I reviewed the records, but I did not 
physically touch all of the weapons that are in the inventory. 
But I did ask probing questions. I asked how it compared to the 
previous inventory, to ensure that there were no anomalies. And 
I asked if everything could be accounted for, even----
    Mr. Chaffetz. Who did you have that conversation with?
    Chief Chambers. With whom, sir? Deputy Chief Chapman, 
Sergeant Dave Whitehorne, and perhaps the captain in training 
at that time.
    Mr. Chaffetz. So why the discrepancy on what Mr. Knox was 
able to find versus what you found?
    Chief Chambers. Sir, during the period of time he came in, 
we were actually between two effective computer systems. One 
had been shut down; the other was not back up and running. And 
so we were left to use Excel spreadsheets, which, frankly, were 
better than nothing, but not able to quickly ascertain where 
items were or get a quick count on how many of anything there 
was. That has all changed since then. But, in that snapshot of 
time, we were limited in our capability to be able to quickly 
review.
    Mr. Chaffetz. Ms. Thorsen, why was this the case? Why the 
discrepancy between the two?
    You have an OIG report. You have somebody saying they 
certify and sign this. They are obviously not reconciled. So I 
give you an opportunity to say, were there any issues with the 
findings of the Inspector General? You didn't say a word, so--
--
    Ms. Thorsen. Chairman, I have no issue and the Department 
has no issues with the findings in the IG report. I think the 
10 recommendations are----
    Mr. Chaffetz. But they are in dispute. Somebody is wrong. 
You have Chief Chambers saying that the weapons inventories for 
which I am responsible had been completed and all weapons 
records have been reconciled, and the Inspector General is 
saying, no, that is not the case. I am trying to figure out 
from the three of you, why is that?
    How does the Chief of the Park Police say they are 
reconciled, the Inspector General says, no, they are not, they 
are not even close? I give each of the three of you an 
opportunity to question or dispute any of the claims or 
findings from the Inspector General. You didn't say anything. 
So put yourself in my shoes. What is the right answer here?
    Ms. Thorsen. Well, I am not particularly familiar with the 
memos and what the Chief did. She is----
    Mr. Chaffetz. Why not? What is your relationship with the 
Chief? Like, what responsibility or oversight or----
    Ms. Thorsen. The Office of Law Enforcement Security, which 
reports to me, has responsibility at the department level to 
develop policy, departmental-level policy, coordinate with the 
bureaus, and provide oversight. The accountability and 
responsibility----
    Mr. Chaffetz. So do you feel a responsibility for what 
happens or doesn't happen in the Park Police?
    Ms. Thorsen. The accountability and the responsibility for, 
in this instance, firearms rests at many levels. Starts with 
the officer, supervisors, the Chief, the Director of the Park 
Service, whom she reports to directly. And then my office has a 
responsibility periodically to go in and ensure that, actually, 
all of the law enforcement programs in the department follow 
department policy, departmental policy. So that is our role.
    Mr. Chaffetz. So, Mr. Jarvis, we have a dispute here. 
Explain to me how we can have two totally different 
conclusions. Who messed up here? Is it Chief Chambers? Is it 
the Inspector General?
    Mr. Jarvis. The way I see it, Mr. Chairman, is that we have 
an inventory management issue. And that is exactly what the IG 
found. They came in; they could not reconcile the weapons that 
they saw in the U.S. Park Police possession against what should 
be a computerized database. There was no reconciliation. And so 
they backed out.
    Mr. Chaffetz. Chief, were you or were you not able to 
reconcile the weapons inventory?
    Chief Chambers. At the time that the IG was there, we were 
not in a position to say with certainty. But we can say now 
that it has been reconciled.
    Mr. Chaffetz. When were you there? When were you doing 
this, Inspector?
    Mr. Knox. Mr. Chairman, we----
    Mr. Chaffetz. Microphone, please. If you can just turn on 
the microphone. Thank you.
    Mr. Knox. Mr. Chairman, we conducted our inspection from 
February 11th to February 13th and continued----
    Mr. Chaffetz. Of which year?
    Mr. Knox. Of 2013.
    Mr. Chaffetz. And you are saying that they were reconciled 
on August 31st, 2012. And then, within 6 months, it was in 
disarray. Is that what you are saying?
    Chief Chambers. Sir, I am saying we couldn't prove or 
disprove whether the records were accurate, because at that 
moment in time we had Excel spreadsheets, several of them, to 
try to bring this compilation. The weapons were there, but 
there was no way to reconcile it. We can do so now.
    Mr. Chaffetz. I have more questions about this, as do other 
Members. I am way over time.
    I now recognize the gentleman from Arizona, Mr. Grijalva, 
for 5 minutes plus another minute or 2 if he so chooses.
    Mr. Grijalva. Thank you, Mr. Chairman.
    Let me start with kind of a basic question, given the 
report and the recommendations. Has the Park Police accounted 
for all these weapons?
    Ms. Thorsen, do you believe that all the weapons have been 
accounted for? That same question for Director Jarvis and for 
the Chief and for Mr. Knox.
    If you wouldn't mind starting, Ms. Thorsen. Do you believe 
all the weapons have been accounted for?
    Ms. Thorsen. At this point in time, our office in 
conjunction with the Park Service have conducted the physical 
inventory of the Park Police weapons, and at this point in time 
98 percent of them we have accounted for. There are three, as 
mentioned by the Director, that we have not put our eyes on. 
Okay, so that is not complete. So there are three outstanding 
at this point in time. So, other than that, yes.
    Mr. Grijalva. Thank you.
    Mr. Jarvis. I would agree with that. We are not satisfied 
until we put our physical hands on every weapon that is in the 
inventory. And we are still missing three that are assigned to 
individual officers who are not on duty at the moment but will 
be very soon.
    Mr. Grijalva. Chief?
    Chief Chambers. And, likewise, sir, just those final three 
that we know we have to touch.
    And then just as a safeguard, we have another step to do. 
We are going to go back and look at acquisition and property 
records to make certain that things that we have purchased or 
acquired over the last 5 to 10 years are actually in that new 
computerized database. I am confident that they are, but I want 
that additional assurance.
    Mr. Grijalva. Thank you.
    Mr. Knox?
    Mr. Knox. Congressman, the IG takes no position as to 
whether they have full accountability of all the weapons 
possessed by the U.S. Park Police or not.
    Mr. Grijalva. Okay, Mr. Knox, if I could follow up just a 
second. So when the inspection was going on, there was a spot 
analysis that you talk about in your report. So there was no 
follow-up investigation on the part of your office to go deeper 
into that issue?
    Mr. Knox. No, sir. As we began our assessment, we realized 
that the condition of accountability was in disarray.
    Mr. Grijalva. Okay.
    Mr. Knox. There were not good, clear records of what 
weapons should be available, what records should be on their 
accountable records. And so we took a position of looking at 
the weapons that were physically present in the locations we 
visited.
    And the reason for me saying we don't take a position on 
the accountability today is that, although we are confident the 
National Park Service is doing all they can to inventory the 
weapons that are currently present within the control of the 
U.S. Park Police, there is still another step, as the Chief 
points out, to take, which is to go back in time and identify 
the weapons that had been acquired either through transfer or 
purchase or other means and ensure that all of those weapons 
are accounted for, as well.
    Mr. Grijalva. Yeah.
    Let me go to another question having to do with the mission 
of the Park Police: to provide quality law enforcement, to 
safeguard lives, to protect our national treasures and symbols 
of democracy, and preserve natural and cultural resources 
entrusted to the American people and to the Park Service and 
the Park Police.
    Let me begin with you again, Ms. Thorsen. Do you believe 
that the mission of the Park has been compromised as a result 
of the report and--or as a result of the issues described in 
the report?
    Ms. Thorsen. No, I don't, sir.
    Mr. Grijalva. If you don't mind, Director Jarvis, I would 
just like to get this----
    Mr. Jarvis. No, sir, I do not believe there has been any 
compromise to our responsibilities.
    Mr. Grijalva. Chief, if you don't mind?
    Chief Chambers. Our mission has not been compromised, sir.
    Mr. Grijalva. And I go back to you, Mr. Knox. Do you feel 
that that essential mission, as a consequence of your 
recommendations and snapshot view, has been compromised?
    Mr. Knox. Sir, the OIG assessment related to the 
accountability of weapons alone. And we did not look at the 
impact that had on the operational mission of the U.S. Park 
Police.
    Mr. Grijalva. That is a neutral position?
    Mr. Knox. It is a neutral position as to the operations as 
you described them. We feel that the accountability of weapons 
is a part of their duty and operations and that those were 
severely lacking.
    Mr. Grijalva. In the limited time, if I may, Mr. Knox, your 
report uses words like ``inaction,'' ``indifferent,'' 
``nonfeasance,'' ``lackadaisical attitude'' to describe the 
ways the senior management at the Park Police handled this 
weapons accountability. Can you elaborate on why those strong 
words are justified in the report?
    And then, Chief Chambers, do you believe that the Inspector 
General was justified in saying that Park Police senior 
management has a lackadaisical attitude toward weapons 
management and accountability?
    I ask that question because, going back to the question I 
just asked, it is about the integrity of that function, the 
police function, and the confidence that the public has in it. 
But that is why these questions are important.
    So those words are pretty strong words, and your 
justification for using them is my question.
    Mr. Knox. Congressman, we looked at numerous factors when 
we came to deliberately choose those words.
    I would begin with the series of incidents where the Chief 
of the U.S. Park Police had been advised of the serious 
conditions regarding weapons accountability at the U.S. Park 
Police. There was a memo authored by the force firearms 
custodian to the Chief of Police in 2011 that actually 
demonstrated an inventory variance of 120 weapons that was 
brought to her attention.
    Again in that year, the Audits and Evaluations Unit, part 
of the Office of Professional Responsibility for the U.S. Park 
Police, issued a memorandum based on their weapons 
accountability assessment, and they indicated a critical 
failure in the weapons accountability posture of the U.S. Park 
Police.
    And later a memo--I am sorry, a meeting regarding the force 
firearms custodian memo was held, where discussions about the 
content of that memo occurred. Later, a subsequent meeting with 
Deputy Chief Chapman was held in 2012 as a follow-up to those 
discussions.
    And then I would point out that, even as we concluded our 
field work on February 13th of 2013, I personally briefed the 
Chief of Police for the U.S. Park Police on February 15th of 
this year, advising her of our findings and urging her to take 
immediate steps to begin an inventory and get a handle on what 
the actual weapons count for the U.S. Park Police weapons 
inventory was. And we found no meaningful efforts taken until 
after the publishing of our report.
    Mr. Grijalva. Mr. Chairman, in the overage of time, could 
the Chief respond?
    Mr. Chaffetz. Yes.
    Mr. Grijalva. Thank you.
    Chief Chambers. Thank you for the opportunity.
    While I would certainly have chosen different words and not 
characterized it with words that may be so emotionally driven, 
I do appreciate the feedback nonetheless.
    Only because Mr. Knox mentioned several memos, I will touch 
on them. At each step along the way, extreme action was taken--
dialogue, trips to the field offices by our force firearms 
custodian.
    But I must put on the record that the audits memo that 
talked about the critical failure was a new memo to me. I had 
never heard of it. And the only record that the Inspector 
General's Office could produce was one that was still in draft 
mode. It still had the track changes, it wasn't signed on 
letterhead, it had no recommendations. That memo never made it 
to my office.
    Mr. Grijalva. Thank you, Mr. Chairman. Appreciate the extra 
time.
    Mr. Chaffetz. Mr. Knox, I will give you an opportunity to 
respond to that.
    Mr. Knox. I can't say for sure whether the Chief of Police 
received the memo from the force firearms custodian. But I 
would point out the multiple events that occurred between 2011 
and 2013. And it is the position of the Office of Inspector 
General that at least some of those should have alerted the 
senior leadership, including the Chief of Police, of the 
serious conditions of loss of weapons accountability at the 
U.S. Park Police.
    Mr. Chaffetz. Thank you.
    Mr. Knox. Some action----
    Mr. Chaffetz. I now want to recognize Chairman Rob Bishop 
from Utah for 5 minutes.
    Mr. Bishop. Thank you for the opportunity of being part of 
this hearing.
    In some respects, I feel like I am dealing with Syria 
policy; I don't really know who the good guys are out there. In 
fact, I think there is failure on every level that has gone 
through here. So I appreciate it. I appreciate the questions 
Mr. Grijalva asked.
    And, Ms. Chambers, I am going to follow up on that in a 
minute, but I want to go to Mr. Jarvis first.
    The IG report focuses exclusively on failures within the 
Park Police, for which you have ultimate jurisdiction. Is there 
something about the relationship or the autonomy of the Park 
Police that allows them to fall outside of department policies 
on firearms?
    Mr. Jarvis. No, Mr. Chairman. I believe that all of our 
departmental and National Park Service policies apply directly 
to the U.S. Park Police.
    Mr. Bishop. So the rest of the Park Service, you also have 
armed law enforcement in the rest of the Nation outside of 
these three cities?
    Mr. Jarvis. Yes, sir.
    Mr. Bishop. So how do you compare the accountability in 
place for those weapons, opposed to what we found here in the 
Park Police?
    Mr. Jarvis. Well, with all of our managers who have line 
responsibilities for controlled property such as weapons, we 
have a policy of inventory. I have a policy of trust but 
verify, which means I expect them to do their audits and report 
deliberately on their inventory as well as any missing weapons. 
And----
    Mr. Bishop. So I appreciate the concept of verify; that is 
extremely important. But have you investigated--what have you 
done to investigate the concept of park-wide, firearms Park 
Service-wide, not just with the Park Police?
    Mr. Jarvis. Well, we have periodic audits, where we do send 
in our agents to do spot audits on the weapons inventory. When 
I was a superintendent, we would have independent audits done 
specifically. And I can remember one specific case where we did 
find a missing weapon that was not recorded, and I removed that 
employee's law enforcement commission immediately and 
permanently.
    So we do have that kind of oversight and auditing going on 
throughout the Service.
    Mr. Bishop. So you are confident that this problem only 
exists within the Park Police, that it is not systemwide?
    Mr. Jarvis. It is not systemwide.
    Mr. Bishop. Can I ask you why you weren't on top of what 
was happening, then, in the Park Police?
    Mr. Jarvis. I was only made aware of this when I was 
briefed by the IG. That is the first time, and that was in June 
of this year. That is when I was made aware.
    Mr. Bishop. All right. Well, we will get more into that in 
detail.
    I have one other issue with you, though. In 2010, the Park 
Service sent guidance to the field that the Springfield Armory 
Historic Site would no longer accept firearms for destruction. 
So I am assuming that these historic arms are just sitting 
somewhere under your jurisdiction.
    Do you have any responsibility to bear for these unused 
weapons piling up over with the Park Service police?
    Mr. Jarvis. It took us 3 years to get a new contract for 
weapons disposal. And so the Springfield Armory shut down on 
their weapons disposal responsibilities; it took us 3 years to 
get a new contract. So there are approximately 500 weapons in 
the inventory at the U.S. Park Police that are due for disposal 
and destruction.
    Mr. Bishop. Ms. Chambers, is that an accurate number?
    Chief Chambers. Yes, sir, it is.
    Mr. Bishop. And are any of these of historic value?
    Chief Chambers. I don't know, sir. I could find out for 
you.
    Mr. Bishop. Really?
    Do you have any policy for allowing historically valuable 
weapons to be saved, something other than being destroyed, Mr. 
Jarvis?
    Mr. Jarvis. Absolutely. At the Springfield Armory 
specifically, which is the storage repository for historic 
weapons----
    Mr. Bishop. Wait, you mean they are taking them now?
    Mr. Jarvis. I don't know the answer to that question. But 
let me just say that before we do complete destruction on the 
weapons that have been accumulated, we will see if there are 
any historic weapons that are valuable for display or museum 
storage.
    Mr. Bishop. Do we know how many are?
    Mr. Jarvis. I do not know that.
    Mr. Bishop. Do you know, Ms. Chambers, how many are?
    Chief Chambers. I do not, sir. I know----
    Mr. Bishop. Shouldn't you?
    Chief Chambers. I have that information at my disposal but 
not here today, sir.
    Mr. Bishop. Look, I am over by 40 seconds here. I am not as 
longwinded as Raul or Jason, but I definitely have second-round 
questions for some of the rest of you.
    Mr. Chaffetz. Thank you.
    We will now recognize the gentlewoman from Washington, 
D.C., Ms. Norton, for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman.
    I just want to say I have some questions about the report, 
but I do want to take this opportunity to thank the Park 
Police. The Park Police are the only--we have, as the saying 
goes, fifty-eleven police forces in the District of Columbia. 
Every little agency has a police force. This is the only city-
wide--indeed, it is a region-wide police force. And it is often 
underappreciated.
    I remember, after 9/11, the Capitol Police were quickly 
reinforced with new police. And it took some time to get around 
to the Capitol Police, which has much larger territory 
throughout the District of Columbia and the entire region. So I 
have watched the Capitol Police very closely. They have 
jurisdiction for, for example--except for the Metropolitan 
Police Department, they are the only police department that can 
go anywhere. Most of the police, unless they have signed 
memoranda of understanding pursuant to a bill I got passed 
about a decade ago, can't even leave the premises.
    So when we are talking about after Boston, we are talking 
about all the parades and the people who can go and really 
protect people in this town, you are talking about, when it 
comes to Federal police, only the Park Police. And I want to 
thank the Park Police for what looks to be a quick capture of 
the person who may have been, is alleged to have been defacing 
monuments.
    I want to ask you--I also want to thank you for somehow 
finding a way to make sure that the Park Police were not on 
furloughs. That seemed to me to be particularly absurd. When we 
have had furloughs in the Federal Government, we have always 
exempted law enforcement officers. And we were putting the 
entire city at risk, with all of the officials and all of the 
ceremonies. And you found the funds.
    Are you able to fill vacancies in the Park Police, Chief 
Chambers?
    Chief Chambers. We are not currently hiring, ma'am.
    Ms. Norton. So if someone were to leave because of the 
sequester or the cuts, those positions could not be filled?
    Chief Chambers. At this moment, we do not have a class 
schedule. We will be looking closely at the fiscal year 2014 
budget as we get closer to that.
    Ms. Norton. Well, I will be interested to know whether you 
are able to keep a force in place during this time.
    If I could ask Mr. Knox, apparently--and believe me, 
because I represent the District of Columbia, I was pleased 
that apparently no weapons were stolen, weapons were not found 
to be taken home for personal use, no weapons were ever seized 
in a crime.
    Could this have happened without some kind of monitoring? 
Did this just happen by chance? Those would have been the 
worst, it seems to me, of the results, and yet none of that 
occurred. Why not?
    Mr. Knox. Well, Congresswoman, we didn't examine--our 
assessment of weapons accountability at the Park Police did not 
find instances of weapons being stolen. We found instances of 
weapons not being accounted for properly, either in that we 
found weapons on hand which were not indicated on the property 
records or we found property records for weapons which were not 
physically present.
    Ms. Norton. So are you assured that all the weapons are 
accounted for? Are there recommendations of the IG for how to 
do this without taking a lot of time and effort, especially now 
in personnel, especially now when that personnel, of course, 
would not be available?
    Are there examples from other either Federal police or 
other police of ways to do this that you could recommend to the 
Park Police so this would not become a paperwork exercise but 
would be geared to just the kinds of things you have not just 
found? You have not found yet stolen weapons, people taking 
weapons home when they shouldn't be or ending up in a crime.
    So does somebody have a streamlined way to do this that you 
could recommend to the Park Police?
    Mr. Knox. Well, Congresswoman, we made 10 recommendations 
in this assessment which we feel, if complied with, will 
enhance their weapons accountability posture a great deal. Our 
expectation would be that they can account for all their 
weapons, and that would be typical behavior in most police 
agencies.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Chaffetz. Thank you.
    I will ask unanimous consent to allow Mr. Southerland of 
Florida, who is on the Natural Resources Committee, to also 
join us in this hearing.
    Hearing no objection, so ordered.
    I now recognize the gentleman from Michigan, Mr. 
Bentivolio, for 5 minutes.
    Mr. Bentivolio. Thank you, Mr. Chairman.
    Based on the IG report, the lack of accountability here is 
very disturbing. I think about how the government holds 
civilians accountable for the firearms they own as private 
citizens through registration and licensing procedures. But 
here we have government firearms, paid for by taxpayers, left 
in your care, with a total lack of accountability. The IG 
discovered hundreds of handguns, rifles, and shotguns not 
listed on official Park Police inventory records.
    Where is the failure here that periodic and accurate 
inventory records were not maintained? Is there any legitimate 
excuse for this lack of accountability? Should there be more 
frequent audits and inventories?
    Chief Chambers, in the Army, we are required to hold 
periodic weapons inventories. Each soldier was held accountable 
for the weapons they were assigned. And like most all instances 
in the military, the most senior person is responsible to 
ensure that his subordinates do what they are supposed to do.
    Ms. Chambers, as the Chief of the Park Police, who is 
ultimately responsible for the firearms inventory at the Park 
Police?
    Chief Chambers. It is me, sir.
    Mr. Bentivolio. The IG report indicated that a board of 
survey should be conducted whenever an item is lost or stolen. 
I imagine that in the case of firearms, which are sensitive 
government property, like in the military.
    And this is even more important. The IG report also stated 
that when asked about a board of survey, you were not aware of 
what a board of survey was and whether it was required to be 
conducted for missing weapons. Can you explain why this was not 
clear to you?
    Chief Chambers. Yes, sir. I had never personally heard the 
term. That did not mean that my team did not. In fact, we have 
reissued the memo, identifying the members of various boards of 
survey. It had been an ongoing practice. Just coming from 
municipal government, it was a term that was foreign to me.
    Mr. Bentivolio. Mr. Knox, are you aware of any disciplinary 
actions at the Park Police taken as a result of the IG 
findings?
    Mr. Knox. No, sir, I am not.
    Mr. Bentivolio. Mr. Jarvis, nice to see you again.
    Who should be held accountable for these shortcomings? What 
type of disciplinary actions will be taken?
    Mr. Jarvis. We are still in the investigative phase on 
this. The first step was Recommendation 3, which is a full 
physical inventory. As I indicated in my earlier testimony, we 
are almost done with that. We still have three officers that we 
want to put our hands on those weapons and look at their serial 
numbers.
    Then there is a forensic, sort of, analysis of the previous 
procurements. So, when were those guns brought into the U.S. 
Park Police? When were they purchased? When were they 
transferred from other agencies? We want to compare that to the 
inventory, and then we will see whether or not there are any 
weapons truly missing or stolen.
    And then and only then, would we take a disciplinary action 
if we found that there was true mismanagement. At this point, 
we have a inventory management issue, not a mismanagement 
issue.
    And we have to get that completed over the next probably 60 
days or so to get that second part of that, sort of, forensics 
done on the procurement. And then we will understand whether or 
not this is just a fact that we did not have them in the 
inventory and could not account for them in the computer system 
rather than there are actually missing weapons.
    Mr. Bentivolio. Well, if you can't account for them, it 
sounds to me like it is mismanagement or something else.
    But I understand, according to testimony earlier, it has 
been ongoing for the past 5 to 10 years, correct? Did I 
understand that correctly, yes or no?
    Chief Chambers. I heard that. I wasn't aware of anything 
prior to 2011.
    Mr. Bentivolio. Well, I heard testimony of going back as 
far as 2008 and 2009.
    Ms. Chambers, do you receive a bonus?
    Chief Chambers. No, sir.
    Mr. Bentivolio. Do you, Mr. Jarvis?
    Mr. Jarvis. No, sir.
    Mr. Bentivolio. In 2008, you never received a bonus?
    Mr. Jarvis. No, sir.
    Mr. Bentivolio. 2010?
    Mr. Jarvis. No, sir.
    Mr. Bentivolio. 2011?
    Mr. Jarvis. My salary is fixed exactly. No bonus.
    Mr. Bentivolio. Thank you.
    I yield back.
    Mr. Chaffetz. Will the gentleman yield to the chairman of 
the subcommittee?
    Mr. Bentivolio. Yes, sir.
    Mr. Bishop. Mr. Jarvis, you gave a nice spin there, but you 
didn't answer his question. His question is who is ultimately 
responsible, not what have you done. Who is ultimately 
responsible?
    Mr. Jarvis. I am the Director of the Park Service. I am 
ultimately----
    Mr. Bishop. So you are ultimately responsible for this.
    Mr. Jarvis. I am ultimately responsible.
    Mr. Bishop. What about Ms. Chambers? What culpability does 
she have in this chain of reaction?
    Mr. Jarvis. She is the line supervisor, U.S. Park Police. 
She is also responsible.
    Mr. Bishop. Look, guys, there was a 2003 report that was 
given, 133 guns were missing, 2 ended up in a pawn shop; a 2008 
report that showed problems; a 2009 report that showed 
problems. All of you were on the job then.
    Mr. Jarvis, what specifically did you do to implement the 
findings of the 2009 report?
    Mr. Jarvis. I was unaware of the 2009 report.
    Mr. Bishop. But it came under your watch.
    Mr. Jarvis. I was not the Director until October of 2009.
    Mr. Bishop. No, you were the Director after this report was 
taken--this report was permitted. What did you do about it?
    Even if it came after you took office, which it did not, 
what should you have done about it?
    Mr. Jarvis. I should hold my line supervisors accountable 
to follow the procedure----
    Mr. Bishop. Just the line supervisors?
    I mean, Ms. Chambers, you are throwing everyone in your 
department under the bus. How much accountability should you 
have for that? That was his question. It hasn't been answered. 
How much accountability should you hold?
    Chief Chambers. Full accountability.
    Mr. Bishop. Have you taken full accountability and 
responsibility for it?
    Chief Chambers. Yes, sir, I have.
    Mr. Bishop. What has your action been?
    Chief Chambers. We have--the most immediate has been to 
elevate the position of the firearms manager, sir, custodian 
manager----
    Mr. Bishop. What about your responsibility?
    Chief Chambers. --so that I have a more direct line of 
communication with that person.
    Mr. Bishop. So you are still blaming other people for it.
    Chief Chambers. No, sir. It is my responsibility.
    Mr. Bishop. I am going to yield back to the gentleman from 
Michigan.
    Mr. Chaffetz. The gentleman yields back.
    We will now recognize the gentleman from Tennessee, Mr. 
Duncan, for 5 minutes.
    Mr. Duncan. Thank you, Mr. Chairman.
    And both chairmen have started touching on this, but I read 
in this letter, it said, ``This report further underscores''--
the letter from the Deputy Inspector General Kendall--``This 
report further underscores the decade-long theme of inaction 
and indifference of U.S. Park Police leadership. Basic tenets 
of property management and supervisory oversight are missing in 
their simplest forms. Commanders up to and including the Chief 
of Police have a lackadaisical attitude toward firearms 
management. Historical evidence indicates that this 
indifference is a product of years of inattention to 
administrative detail.''
    That is a very disturbing letter. And then it becomes even 
more disturbing when I read that the 2008 report and the 2009 
report both have the same language.
    ``We found a disconcerting attitude toward firearms 
accountability within U.S. Park Police. In particular, we found 
that firearms custodians were unaware of the number of guns in 
their inventory or of the origin of these guns and that guns 
physically present were not listed on the inventory.''
    That is very disturbing, that this has been going on for, 
it says, a decade and that there was this report in 2008 and 
2009.
    Are we going to be back here 5 years from now and the 
situation is going to be the same? I mean, will each of you 
assure us that something is going to be done to straighten this 
out and change these lackadaisical attitudes about this, or are 
you just going to go back to your offices and laugh about this 
hearing?
    Mr. Jarvis. I will respond to that.
    Absolutely, I can assure you that we will not be back in 
here, other than perhaps to report on the final findings of 
this investigation. But I can assure you that we will, 
throughout the National Park Service, including the U.S. Park 
Police, ensure accountability throughout the organization.
    Mr. Duncan. Ms. Chambers?
    Chief Chambers. I certainly echo the Director's remarks. 
Action has been taken and will continue to be taken. It is a 
continual improvement process, and we will get better at it 
with each day.
    Mr. Duncan. Is it accurate, the report I have, that there 
are 640 officers that are in your department----
    Chief Chambers. Approximately, sir.
    Mr. Duncan. --in your force?
    Chief Chambers. Yes, sir.
    Mr. Duncan. I mean, that is not a gigantic bureaucracy. It 
looks like to me like it shouldn't be this difficult to 
straighten this out and change these attitudes and this 
indifference.
    So thank you very much. I yield back.
    Mr. Chaffetz. I thank the gentleman.
    We will start a second round here. I will recognize myself.
    Chief Chambers, in response to Chairman Bishop, you said 
that you were elevating this position or this person. What does 
that mean?
    Chief Chambers. Not the person, sir, the position. It has 
been a----
    Mr. Chaffetz. When you say ``elevate,'' what does that 
mean?
    Chief Chambers. Right now, it is in the hands--the firearms 
custodian position is handled by a sergeant who also is our 
range master. That is not appropriate. I need a person full-
time who will devote all of his energy to the management of the 
firearms.
    So a lieutenant is now being taken from another position. 
That lieutenant is being pulled out of the chain of command and 
going right to the Deputy Chief, who sits next to my office, so 
that we----
    Mr. Chaffetz. So how many weapons, then, does the U.S. Park 
Police have? What is the current inventory?
    Chief Chambers. Approximately 2,500, sir.
    Mr. Chaffetz. So you have 2,500 weapons. Why that number? 
Why 2,500?
    Chief Chambers. Well, sir, a patrol officer would have 
three weapons each: a firearm at his side, a pistol; a patrol 
rifle; and a Taser.
    Mr. Chaffetz. So the IG found that there were in their 
words, 1,400 extra weapons. What are these extra weapons?
    Chief Chambers. Sir, I would have characterized it 
differently but as I probed the extra weapons included things 
like serialized parts, firearms that had been cannibalized so 
that we could keep other firearms in working condition without 
incurring additional cost. Some of these were training weapons. 
Some, as we had already discussed, were those were set aside 
awaiting disposal once we were able to get a contract.
    Mr. Chaffetz. So you said 2,500 weapons is how many you 
have?
    Chief Chambers. Approximately, yes, sir.
    Mr. Chaffetz. You have 640 officers?
    Chief Chambers. Yes, sir.
    Mr. Chaffetz. You said that a person would have three 
weapons?
    Chief Chambers. A patrol officer would have three, yes, 
sir.
    Mr. Chaffetz. Who has more than three weapons?
    Chief Chambers. It is likely that a SWAT officer may have 
an additional weapon depending on his assignment.
    Mr. Chaffetz. So you have 640 sworn officers, who have 
three weapons each, that is close to 1,900.
    Chief Chambers. Yes, sir.
    Mr. Chaffetz. How do you account for the other 600 weapons?
    Chief Chambers. Sir, many are for training purposes. They 
include things like simunitions guns that you point at a 
screen, Tasers, things that----
    Mr. Chaffetz. When can you provide to this committee--when 
I say ``this'' committee, both committees, Oversight and 
Natural Resources, the actual inventory?
    Chief Chambers. I'm sorry, you are asking for----
    Mr. Chaffetz. A copy of the inventory.
    Chief Chambers. Yes, sir, I would be glad to.
    Mr. Chaffetz. When will I get that?
    Chief Chambers. If I could have a week that would be 
appreciated.
    Mr. Chaffetz. One week sounds reasonable.
    Chief Chambers. All right, sir.
    Mr. Chaffetz. By next Friday, we look forward to seeing 
that inventory. I asked you if you took any issue with the idea 
with the findings of the OIG. He found that you had 1,400 extra 
weapons. Do you take exception to that?
    Chief Chambers. I do, sir.
    Mr. Chaffetz. Why didn't you say that before when I asked 
you?
    Chief Chambers. Sir, I didn't want to interrupt. Others 
were speaking.
    Mr. Chaffetz. No. I asked you that question. You weren't 
interrupting. How is it that there is such a disparity--how did 
you come up with the number 1,400 extra weapons?
    Mr. Knox. Chairman, during our assessment we physically 
examined over 1,350 or so weapons on hand. At the same time the 
force firearms custodian provided us a list indicating he had 
1,450 essentially weapons on hand. There was a disparity in 
those numbers, and even as I listened to the Chief testify 
today, if each officer has a weapon and we have 1,920 weapons 
therefore issued, that would leave only 600 on hand for a total 
count of 2,500. But we counted twice that many. And granted 
they are a collection of----
    Mr. Chaffetz. Let me understand that. You counted how many 
weapons?
    Mr. Knox. 1,350.
    Mr. Chaffetz. But when you said twice that many, twice of 
what? Explain that to me.
    Mr. Knox. If three weapons are issued to each officer, 
meaning a total of 1,920, and if 2,500 is the total sum of 
weapons in possession of the Park Police, we should have only 
been able to count 600 weapons when we went through the various 
facilities. But, in fact, we counted 1,350.
    Mr. Chaffetz. Chief? How do you answer that?
    Chief Chambers. Sir, many of those are patrol rifles that 
have not yet been issued. The patrol rifle program, it takes 40 
hours for an officer to get fully certified. And at this 
moment, we don't have a range to use so we use those as we can 
get it. It will take several more years until every officer is 
certified to carry a patrol rifle.
    Mr. Chaffetz. Mr. Jarvis, do you concur with everything the 
Chief is saying?
    Mr. Jarvis. I do, I do. I want to add one other factor 
though that they are in possession of some 500 weapons that are 
scheduled for disposal----
    Mr. Chaffetz. Would any of those disposals include the 
sales of those weapons?
    Mr. Jarvis. I do not believe so, sir.
    Mr. Chaffetz. Why not, why not sell the weapons? They are 
of value.
    Mr. Jarvis. I think our policies are that those weapons go 
to disposal.
    Mr. Chaffetz. That is a policy we need to revisit. My time 
is expired.
    I now recognize the gentleman from Arizona, Mr. Grijalva, 
for 5 minutes.
    Mr. Grijalva. Thank you, Mr. Chairman.
    Mr. Knox, just for the sake of definition, it is my 
understanding that what triggered your investigation and your 
recommendations and findings was an anonymous tip or an 
anonymous complaint. That anonymity, is it for the sake of 
protecting a whistleblower under the statute, or is it indeed 
anonymous as the definition would be of anonymous?
    Mr. Knox. Congressman, in this instance, the complaint was 
received anonymously. We have no knowledge----
    Mr. Grijalva. Was it in writing, a phone call?
    Mr. Knox. The complaint was received in writing.
    Mr. Grijalva. Excuse me. I don't have that here with me. 
That particular complaint, that has been made available to the 
committee in writing?
    Mr. Knox. No, sir, I believe I don't believe it has.
    Mr. Grijalva. Mr. Chairman, could we have that complaint in 
writing as part of the record?
    Mr. Knox. Are you asking me for the complaint?
    Mr. Grijalva. Yeah.
    Mr. Knox. I will have to consult with the Deputy IG on our 
policy relating to release.
    Mr. Chaffetz. The committee would certainly appreciate 
that, not just the consultation but to comply with the ranking 
member's request.
    Mr. Knox. I understand. Thank you very much.
    Mr. Grijalva. And excuse me. I keep and to all the 
witnesses--I keep asking the same question to people because I 
keep looking for a smoking gun, and I can't seem to find one. 
Pardon the pun.
    The Fraternal Order of Police has concerns with the 
methodology and the allegations made in the IG report. They 
believe that law enforcement best practices were not followed 
and that the report unjustly put, places blame on the current 
agency administration for the failure of previous chiefs of 
police and that the report undermines the credibility of this 
and future IG assessments and indeed the credibility of the 
force itself.
    Chief, your reaction to that assessment. And I will ask the 
same of you, Mr. Knox, if you don't mind.
    Chief Chambers. The Fraternal Order of Police's 
communication with you is, of course, on their own volition. 
The fact that one agrees or disagrees with how the IG's report 
may have been conducted is not as important to me as the value 
I find and I did find it valuable and the 10 recommendations 
are a great road map for us and I intend to see that they are 
fully implemented.
    Mr. Grijalva. Thank you.
    Mr. Knox.
    Mr. Knox. Congressman, I received a copy of the Fraternal 
Order of Police letter just moments before while we were in 
recess. I've read it. I'm not sure what information they might 
be referring to. I take exception to their statement about 
undermining the value of OIG activity. In fact, our 
recommendations have been received well by the National Park 
Service, and we're pleased that they intend to implement them.
    Mr. Grijalva. And I agree. I think that the fact that the 
reaction from the administration and the Department has been to 
be proactive and say, okay, let's look at these and make 
corrections and adjustments. But we keep looking for the root 
cause of all this. And so that is why I'm assuming we are 
having this hearing rather than giving it ample time for the 
recommendations to be implemented, to be corrected, and then to 
have a hearing on the assessment toward the end of the line as 
opposed to making some judgments now that are probably I think 
patently unfair when the process isn't done yet.
    But given all that, there was a transition going on, Ms. 
Thorsen, from one system to another dealing with a reliable 
weapons inventory.
    Do you believe that that transition to a new system is one 
of the reasons the Park Police could not provide the IG at that 
moment of the snapshot with the records upon request?
    Ms. Thorsen. Without understanding the thorough assessment 
process that the IG used, they have their own methodologies in 
which they follow when they do their assessments, it appears 
that when they were looking for records and talking to the 
Chief they were unable to bring up records in the FBMS system. 
So that may have very well played into the fact that they could 
not produce at the time the electronic accounting records 
needed for verification.
    FBMS is the financial and business and management system 
for the Department.
    Mr. Grijalva. Thank you. Not by act of Congress and by 
unfortunately a signature of the administration, we have guns 
in the parks, and the public can have that access. And I would 
suspect that maybe our committees' time would be well served to 
assessing how that's going, what stress is put on Park Police 
and employees, and what, if any, backlash has been in terms of 
public acceptance of that.
    With that, I yield back. And thank you, Mr. Chairman.
    Mr. Chaffetz. Thank you. I now recognize Chairman Bishop 
for 5 minutes.
    Mr. Bishop. Thank you.
    Ms. Thorsen, you're the person who oversees all the law 
enforcement programs in the Department. What is your 
responsibility to ensure the Department firearm policies are 
known and followed?
    Ms. Thorsen. The office of law enforcement security in the 
Department is part of the tiered responsibility in the 
Department for firearms accountability. It starts with the 
officer supervisory chain, the Chief in this instance, the 
director of the particular bureau that the law enforcement 
program resides in. We have seven----
    Mr. Bishop. So is it your responsibility to make sure she 
knows what she's supposed to be doing?
    Ms. Thorsen. We do that through compliance evaluations 
periodically, yes.
    Mr. Bishop. So if the Chief claims that she didn't know 
about some of these things, is that your responsibility for 
making that known? Is that your--has it been your office's 
failure in her not understanding what she was supposed to be 
doing?
    Ms. Thorsen. No, I do not believe it is our office's 
failure.
    Mr. Bishop. That's your responsibility.
    Ms. Thorsen. Our responsibility is to issue departmental 
policy, which we did after the 2009 report was issued.
    Mr. Chaffetz. How do you follow up on that?
    Ms. Thorsen. We follow up with periodic compliance 
evaluations and we are in the middle of doing a firearm 
assessment right now in all seven law enforcement programs in 
the Department.
    Mr. Bishop. The report--they started looking at this thing 
in February. You started counting in July. Why was there that 
disparity of time? Why did you wait so long to try and find out 
what the answers would be?
    Ms. Thorsen, I'm still coming at you.
    Ms. Thorsen. Actually we started our assessment in April 
and we are still in the middle of that.
    Mr. Bishop. Mr. Knox, you didn't do a baseline accounting, 
did you, of how many guns ought to be there, what is the number 
that should be?
    Mr. Knox. Mr. Chairman, we could not do that. The records 
were not available.
    Mr. Bishop. All right. Ms. Thorsen, what has your office 
done to provide an accurate baseline accounting for firearms, 
not just within her department but across the Department?
    Ms. Thorsen. With the park police we are part of the team 
that is actually out doing a physical inventory right now 
regarding the Park Police.
    Mr. Bishop. Are you doing a baseline?
    Ms. Thorsen. We are doing a physical inventory at this 
point and----
    Mr. Bishop. Is somebody going to come up with how many 
weapons should be out there?
    Ms. Thorsen. That's the next phase. As talked about 
earlier, we will be looking at, the Park Service in particular 
will be looking at purchasing records, transfer records and 
comparing those to the physical inventory and----
    Mr. Bishop. When is that going to happen? When will that be 
done?
    Ms. Thorsen. I don't have an exact date but I'm hoping in 
the next couple months or two.
    Mr. Bishop. So are we. The Department's testimony says----
    Mr. Chaffetz. Will the gentleman yield.
    Mr. Bishop. Yes.
    Mr. Chaffetz. Recommendation Number 6 says reduce the 
firearms inventory to no more than the minimum necessary to 
equip law enforcement, and that is to be done by October 2013. 
If you don't have a baseline, you don't know how many you're 
going to reduce it by, I worry that, do you even know what the 
recommendations are?
    Ms. Thorsen. Yes, I do, sir.
    Mr. Chaffetz. I yield back.
    Mr. Bishop. All right, the Department testimony says the 
Office of Law Enforcement and Security will work with the Park 
Service to provide additional oversight. That suggests that 
OLES has not, in the past, been conducting adequate oversight 
of the department's law enforcement units in their firearm 
inventory? Did you or OLES conduct any oversight in response to 
the allegations of the 2009 report to ensure that 
recommendations were implemented?
    Did you do anything for the 2009 report?
    Ms. Thorsen. We issued a variety of policies in our 
firearms policy, and then we have since also looked and 
compared policies at the Bureau of Land Management, the Bureau 
of Reclamation, and the Fish and Wildlife Service Office of Law 
Enforcement to ensure that they had policies in place that we, 
we in the Department, identified from the 2009 report.
    Mr. Bishop. So why wasn't he able to find any of that 
stuff?
    Ms. Thorsen. Well, those were three different bureaus. The 
Park Police, the process for the Park Service and the Park 
Police with them, and that follow-up is scheduled in the next 
couple of months. We have, the capacity we have in the 
Department with seven law enforcement programs we are going 
through them systematically.
    Mr. Bishop. All right. So they are different than the 
others and I get that. But in 2009, it was supposed to be, the 
recommendation was OLES should revise existing policy to direct 
that lost or missing cached firearms must be reported and 
investigated similar to lost or missing assigned firearms. That 
was the responsibility in 2009. Why didn't you do it?
    This is now 4 years later we find out it hasn't been done. 
Why wasn't it done?
    Ms. Thorsen. We did issue policy, Chairman, to ensure that 
weapons lost, missing weapons were reported. Those are required 
to be reported up in to our interior operations center on a 
serious incident report.
    Mr. Bishop. But what good are those policies if no one 
knows about it and no one is following up on it? You have no 
follow-up on what you said you did after the two--there is no 
reason that this IG's report should have come out. There was 
already a problem in 2003 when all of you were involved. There 
was a report in 2008, and another one in 2009. It told you to 
do this. You say you issued policies but no one knows about 
them and no one followed up on them. Why not?
    Ms. Thorsen. The bureaus do know about the policies we 
issued. We issued them to all seven law enforcement programs 
once they are issued from the Department. We also have ongoing 
conversations with the bureaus, the Bureau of law Enforcement 
Programs, in fact, while we are developing those policies and 
when we issue those policies. So they are aware of those 
policies.
    Mr. Bishop. Then why didn't you have the data? Why were 
these things missing? Why did the IG report find out so many 
problems that they labeled also as a lackadaisical action and a 
culture that takes place? Why wasn't this thing solved in 2009 
if you actually did your job in 2009? If you actually followed 
the policies that were requested, and you say you do, why do we 
still have this problem 4 years later? And it was a perfect 
question by Mr. Duncan. Are we going to have the same thing 
happen in 5 years because of the attitude, lackadaisical 
attitude we have in the Department? Ms. Thorsen, this is your 
responsibility, why has it not been done? Why 4 years later are 
we still in a mess?
    Ms. Thorsen. The responsibility and accountability for 
firearms rests partly with the Department, but also with, as I 
said earlier, the officer, supervisory chain, the Chief and the 
director of whatever particular bureau the law enforcement 
program falls in. And as the director spoke earlier to, they do 
regular inventories, yearly inventories and information 
assurances statements every year to ensure that those 
accountable property items are tracked. So my expectation is 
that the bureaus and their programs are executing those 
requirements through policies we issue and policies issued by 
the acquisition and property management staff.
    Mr. Bishop. All right, I'm way over time so I will ask this 
simple question. If you did everything right, who screwed up?
    Ms. Thorsen. The Department issued policies for--actually 
the 2008 and the 2009 reports. The Park Police did not 
institute all of those policies, which we found out, and we are 
implementing those recommendations as we speak right now from 
the IG's report.
    Mr. Bishop. So Ms. Chambers screwed up?
    Ms. Thorsen. There are many layers of folks that were not 
taking appropriate accountability.
    Mr. Bishop. So you all screwed up?
    Ms. Thorsen. No, I would not say everybody screwed up, sir.
    Mr. Bishop. But somebody had to.
    Ms. Thorsen. There are members, members of the force, 
members of the Park Service as identified by the IG in the 
report that apparently were not able to account for their 
firearms. So we take the recommendations to heart, we are 
implementing them to ensure that they are trained and that they 
are well aware of their personal accountability requirements 
when it comes to firearms.
    Mr. Bishop. All right, this is the last statement then. If 
you ordered, if you did the policies, you took the 
recommendations that go back 4 years ago and you did all of 
that, this IG's report should not have happened. Somewhere 
there was a failure. This IG's report should not have happened 
at all. Somewhere there is a failure, and someone needs to be 
responsible for that failure.
    I'm sorry. I do have one last question. You said you 
elevated this new position to take care of this problem.
    Chief Chambers. Sir, I have assigned it to rank one rank 
higher.
    Mr. Bishop. So someone got promoted to do this?
    Chief Chambers. No, sir. A current lieutenant has now been 
moved into this new position.
    Mr. Bishop. So someone on staff has been promoted into this 
new position?
    Chief Chambers. Not promoted, sir, moved laterally from his 
other assignment as a shift commander.
    Mr. Bishop. Was this person responsible for this--oh, never 
mind. I think you understand where I'm coming. Somebody got a 
new assignment because of this but that doesn't solve the 
problem. I'm sorry for going over.
    Mr. Chaffetz. One of the challenges is everybody, oh, we 
take responsibility, but nobody is held accountable. Nobody is 
held accountable. That's the problem. Is anybody fired? Has 
anybody been fired? No. And we have this persistent problem, 
we're dealing with weapons. This is not an excusable, oh, 
sorry, I won't let that happen again.
    If President Obama wants gun control, he should start with 
the United States Park Police.
    Now a very generous 5 minutes for the gentlewoman from 
Washington, D.C., Ms. Norton.
    Ms. Norton. Well, the committee is and I thank you, Mr. 
Chairman, is right to be concerned about the IG report and what 
looks like difficulties of setting up a two system to keep 
track of guns. Anybody who has control of guns has a special 
responsibility. I'm going to say I find it also interesting 
that this committee is as interested as it is in the question 
since it has tried in the past to wipe out all the gun laws in 
the District of Columbia which would have given the Park Police 
a whole lot more work than it has now.
    So I'm interested less in beating somebody up and finding 
out how to get this gun given the personnel issues that face 
every agency, including the Park Police.
    Now did I understand you to say that you are not filling 
vacancies, Ms. Chambers?
    Chief Chambers. Not sworn vacancies, and civilian ones only 
on an as need basis and approved up the chain of command.
    Ms. Norton. So no matter how low, we have a lieutenant who 
was here in a line position that had to do with patrol of the 
Park Police throughout the region?
    Chief Chambers. Yes, ma'am. He was a shift commander.
    Ms. Norton. So somebody is going to have to do that job 
which has to do with law and order.
    So I'm concerned that at a time when even officers of the 
Park Police when they leave the Park Police and create a 
vacancy cannot be replaced that we are talking about why people 
aren't doing what clearly they should have been doing in this 
climate.
    All I can say, Chief Chambers, is in trying to get ahold of 
this inventory, an important responsibility of the Park Service 
and of the Park Police, I certainly hope that because you have 
heard so much at this hearing from Congress and that can always 
be intimidating, you will bear in mind that the public wants 
our monuments to be safe. Our public wants the 20 million 
visitors who come to this city from around the world to be 
safe, especially since most of them go to the monuments and to 
the Mall.
    So I can only hope that your first priority, whatever the 
concern, and it is a legitimate concern, about these guns does 
not deflect you from the law and order, the law and order 
mandate of the Park Police.
    Mr. Knox, is there any evidence that there has ever been a 
system to keep control of guns? I mean aren't we starting from 
the ground up?
    Mr. Knox. Congresswoman, the current state of 
accountability for weapons at the Park Police is in disarray.
    Ms. Norton. I understand that. I am saying it sounds to me 
as though no one ever invented one.
    Mr. Knox. Well there is no, as we say in our report we 
don't have a baseline from which to start. There's no point in 
time where we have any confidence in any inventory----
    Ms. Norton. So bear that in mind that essentially there is 
no record that the Park Police has ever in any administration 
at any time done anything but keep the guns from getting out of 
its control and apparently it has done that, but it has never 
had the kind of professional system that we would expect a law 
enforcement office to have. Of course the Park Police has been 
among the most unappreciated and least well staffed police 
forces, Federal police forces. And you know it shows.
    So I understand this is an important issue. I represent 
this city. If the Park Police don't keep control of guns then, 
of course, in no small measure this city may be the first to 
feel the effects of it.
    But we're asking the Park Police to create, invent a system 
that was never in place at a time when they will not be able to 
replace peace officers no matter how low the number gets when 
and if they leave. So I want to make it clear that there are 
mandates and there are mandates. And I certainly hope nothing 
in this hearing makes you believe that there is any mandate 
more important than making sure that our monuments, our 
visitors and the people, our Federal employees, the people who 
come to this city in huge numbers every day, are safe.
    Mr. Knox, this may not be done as fast as it should be but 
I assume you also would believe that their first priority 
should be the protective mandate of any police force.
    Mr. Knox. Congresswoman, of course we do. I do as well 
personally. But I would like to say that weapons accountability 
is a very fundamental task of a law enforcement agency and not 
a difficult one to achieve. It just takes leadership.
    Ms. Norton. Agreed. And I'm the first to agree to that. As 
I say. My district would be the first to feel the effects. But 
you're talking to people who cannot fill any position at any 
time and whose budget is going to go lower and lower each year 
unless we do something about it. I think everybody ought to put 
all the cards on the table, and that's the big elephant in this 
hearing room today.
    And I yield back the balance of my time and I thank the 
chairman.
    Mr. Chaffetz. And I thank the gentlewoman. I would remind 
the gentlewoman that the U.S. Park Service spends some $50 
million a year acquiring new properties, acquiring new things. 
We can't even take care of what we have now. So if you share my 
commitment that we need the proper personnel, they need to be 
trained, they need to be supervised properly, perhaps the 
gentlewoman would join me in making sure that rather than 
acquiring new things and spending to the tune of $50 million a 
year doing so within just this one department, maybe we should 
take care of what we have here today.
    Now I will yield to the gentleman from Massachusetts, I 
recognize him for 5--I'm so sorry the gentleman from Michigan, 
Mr. Bentivolio, for 5 minutes.
    Mr. Bentivolio. Thank you very much, Mr. Chairman. Let me 
be perfectly clear. There's no doubt in my mind that I don't 
think our officers on the job are not doing that job and 
protecting the life and property of the United States 
Government as well as our visitors.
    But Ms. Chambers, Chief Chambers, I'm still a little 
concerned. You said something earlier that you did not know 
what a report of survey was, what last year you just learned of 
it? Is that right?
    Chief Chambers. After the interview with the Inspector 
General's investigator, I then inquired of my staff, what is 
this term? What does it mean? And they provided me with all the 
background.
    Mr. Bentivolio. And how long have you been in this 
position?
    Chief Chambers. Sir, I was reinstated in January of 2011.
    Mr. Bentivolio. Reinstated.
    Chief Chambers. Yes, sir.
    Mr. Bentivolio. That means you held this position before?
    Chief Chambers. Yes, sir.
    Mr. Bentivolio. What years was that?
    Chief Chambers. 2002 and 2003, sir.
    Mr. Bentivolio. So you held this position before and you 
didn't find out what a report of survey was?
    Chief Chambers. I had never heard the term, sir.
    Mr. Bentivolio. Do you have any military experience?
    Chief Chambers. No, sir, I don't.
    Mr. Bentivolio. Okay. You know, I could pretty much ask 
most privates and corporals and surely an E5 sergeant what a 
report of survey is and they will be able to tell you. And I'm 
a little bit surprised and disturbed that somebody at your rank 
doesn't understand that.
    Now let me ask you another question real quickly. If I went 
and just stopped in one of your field offices where there were 
some rifles or pistols and I asked you and read the serial 
number, would you be able to tell me where it was acquired, 
when it was acquired, who had it or a chain if you will or, 
yes, somebody signed for it, a hand receipt for it, anything 
like that?
    Chief Chambers. Not knowing the capabilities of the 
financial business management system that we just got access 
to, I don't know that answer today, but I'd be glad to find out 
for you.
    Mr. Bentivolio. So--let's say I'm an officer. Do I come in 
and say hey I would like to check out a rifle, I'm qualified, I 
was a master gunner for my unit, I'm SWAT trained, former 
military policeman, I know how this works.
    How do I get that weapon?
    Chief Chambers. Actually we've got such a request right 
now. An officer would request to have one assigned to him so 
that he doesn't have to go to an arms room. It would be 
assigned to him each and every day to take out on patrol.
    Mr. Bentivolio. What do you mean you don't have an arms 
room? If he signs it out every day you have to have a secure--
--
    Chief Chambers. It would be a secure area for him, yes, 
sir.
    Mr. Bentivolio. So these are locked up overnight when he is 
not on duty?
    Chief Chambers. Correct, sir.
    Mr. Bentivolio. And then he shows up in the morning, he is 
going on duty, does he sign for that weapon?
    Chief Chambers. He better. I don't know the answer----
    Mr. Bentivolio. He'd better?
    Chief Chambers. There are sign-out procedures.
    Mr. Bentivolio. Okay, well, there should be an armorer or 
somebody that hands that weapon over to him and he signs for 
it. Is that correct?
    Chief Chambers. That's correct, sir.
    Mr. Bentivolio. All right. Now if you're not doing that, 
I'm going to highly recommend U.S. Army veterans. Do you hire 
any veterans?
    Chief Chambers. We do, sir.
    Mr. Bentivolio. Well, you know, they know this stuff 
backwards and forwards. They know the procedure. Maybe you 
should consult somebody who has experience in this area other 
than somebody who, well, apparently doesn't know. Because there 
should be a chain of title or a chain that I can look at right 
now and see a serial number and ask you where that weapon is or 
find out immediately where that weapon is and who had it at all 
times at any moment.
    And you know in the Army if you didn't do that in my unit, 
you'd be relieved on the spot, there would be a report of 
survey on the spot, five or six officers would have their heads 
rolling if they didn't get it fixed within hours.
    Chief Chambers. And that's certainly the ultimate goal.
    Mr. Bentivolio. But nobody's head's rolling. Nobody 
understands. And I keep hearing 5 to 10 years, and apparently 
you didn't know what a report of survey was even back in 2002 
when you held this position.
    Chief Chambers. That's correct.
    Mr. Bentivolio. With that, Mr. Chairman, I yield back my 
time. Thank you.
    Mr. Chaffetz. Thank you.
    I will recognize myself as we wrap this up. I do have a few 
more questions.
    Chief, how is it that somebody could walk up to the Lincoln 
Memorial, throw green paint on it, and walk away without 
anybody noticing? How does that happen?
    Chief Chambers. Sir, if a criminal is intent on committing 
a crime in the presence or outside the presence of a police 
officer's view, he or she can do it. Fortunately, we have got 
technology that has helped us gather the evidence needed in 
this case.
    Mr. Chaffetz. Why wasn't that person apprehended on the 
spot? Is there not a person there patrolling at the time?
    Chief Chambers. There is, sir. And he had just left that 
side of the statue and was actually on the back side at the 
moment that it occurred. I'm confident that it happened very 
quickly based on other witness statements.
    Mr. Chaffetz. I find it totally and wholly unacceptable 
that we don't have the adequate control on something so 
precious and so visible, so close to the White House as the 
Lincoln Memorial. It is just stunning. We will have to get into 
that further.
    How much ammunition do you have?
    Chief Chambers. Sir, we have approximately 500,000 rounds 
of ammunition, and we will be using about 200,000 of that here 
in the next few months for requalification. That happens twice 
a year.
    Mr. Chaffetz. So 200,000 rounds for 640 people, I will have 
to work back and do the math, that seems like an awful lot 
actually as I kind of calculate it right off the top of my head 
here.
    What I would like, and Mr. Jarvis, I would like this from 
you and Ms. Thorsen as well, all seven of the agencies, I hope 
you find it reasonable to ask for the current inventory. We've 
done this with other departments and agencies, we did it with 
the Social Security Administration, we have done it with 
others, it is not a new ask, to provide us a listing of how, 
the current inventory of all the weapons broken out by each of 
the seven agencies, the departments, whatever you want to call 
them, that would also include the inventory of ammunition.
    And if you could also show us the historical purchases of 
both weapons and ammunition for the last 5 years, that would be 
very helpful.
    And the final thing that I would ask is a projection on 
what you anticipate purchasing over the next 24 months. I know 
that crosses a couple different fiscal years and what not but 
certainly you have some sort of projection. And Mr. Jarvis, is 
that a reasonable ask?
    Mr. Jarvis. I think that the ask for the current inventory 
is very reasonable. I think we can supply that. At least I'm 
speaking for the Park Service, I can't speak for the other 
agencies, and also inventory weapons and ammunition. 
Projections--one caveat I would say going back and looking over 
the past 5 years of procurement, that will be, that's a big 
lift. As was indicated here a little bit behind the scenes, we 
have transitioned to a new accounting system----
    Mr. Chaffetz. Well, what's a reasonable time that you would 
get that to the two committees?
    Mr. Jarvis. I will have to get back to you on what, how 
much time that will take. I don't want to overpromise and 
underdeliver on that, so I want to be able to tell you how long 
it would take.
    Mr. Chaffetz. Could we say September 7th; is that a 
reasonable time, over a month away?
    Mr. Jarvis. That we could get back to you with how long it 
will take?
    Mr. Chaffetz. No. No.
    Mr. Jarvis. I cannot promise you that I can have 5 years of 
procurement data to you by September 7th. That is unreasonable.
    Mr. Chaffetz. Let's say this, by the end of August that you 
would get us the current inventory, which you supposedly have 
right at your disposable at this time, and we will give you an 
additional 30 days for the projection of procurement. Is that 
fair, the end of September for the procurement projections?
    Mr. Jarvis. I would guess that our projection for 
procurement is probably the next 12 months, because we don't--
fiscal year----
    Mr. Chaffetz. Next 12 months is a start. That gives you 
almost 60 days to do the, I think that's reasonable. Ms. 
Thorsen, can we do that with all the agencies or all the 
departments under those time parameters?
    Ms. Thorsen. Well, I also don't want to overpromise and 
underdeliver.
    Mr. Chaffetz. I'm asking you to make a commitment. You are 
the one in charge.
    Ms. Thorsen. I will work with the other directors in the 
bureaus to ensure that they get the direction and that we move 
forward, absolutely.
    Mr. Chaffetz. And that you will hit those dates.
    Ms. Thorsen. Yes.
    Mr. Chaffetz. Thank you. I appreciate that.
    Mr. Chaffetz. Now I yield to or recognize the gentleman 
from Utah, Chairman Bishop.
    Mr. Bishop. I was just making sure when he said the 
gentleman from Utah he actually meant me.
    Mr. Knox, you didn't go through an assessment of 
procurement or storage or anything else of ammunition, did you, 
in the report?
    Mr. Knox. Mr. Chairman, no, we did not.
    Mr. Bishop. Were there anecdotal evidences or issues that 
you saw as you were going through the report?
    Mr. Knox. Anecdotally we observed as we moved through the 
various facilities conditions which could be enhanced for 
security, all of which I should mention, sir, were known by the 
Park Police and something they are dealing with.
    Mr. Bishop. Ms. Thorsen, you have a policy for missing 
weapons?
    Ms. Thorsen. Yes, sir.
    Mr. Bishop. Mr. Knox, did Chief Chambers know that policy 
for missing weapons?
    Mr. Knox. Mr. Chairman, I cannot tell you whether she knew 
or did not know.
    Mr. Bishop. Isn't--the claim is that you were not aware of 
that policy, though, is that right, Ms. Chambers?
    Chief Chambers. I believe the report would make one believe 
that I did not know, but that is not accurate, sir.
    Mr. Bishop. You did know?
    Chief Chambers. Of course, sir.
    Mr. Bishop. That means you should have done something about 
it then.
    Chief Chambers. Sir, we have no evidence of missing 
weapons.
    Mr. Bishop. Right. There is a couple of last requests I'm 
going to have from everybody here.
    Mr. Knox, this is something for which you are not 
responsible but we are going to call for it one more time, Miss 
Kendall's title is Acting IG, right?
    Mr. Knox. Mr. Chairman, she uses the title Deputy IG, which 
is the position she held. She did act for a while but the 
vacancy act----
    Mr. Bishop. Is there an IG, a permanent IG?
    Mr. Knox. No, sir, we at the Interior Department do not 
have----
    Mr. Bishop. It has been about 4 years since we had one, 
right? I'm going to make this call one more time as our 
committee has previously. There needs to be a permanent IG 
appointed and it would give some more credibility to the 
reports that are coming out of your office. I want--we need to 
have a permanent IG. I appreciate that.
    Mr. Jarvis, I do have some empathy for the position you 
have, especially when the Park Police has an autonomous streak 
to it, but the responsibility is still to come back with these 
reports. I notice that many of the recommendations we're asking 
to be done by October 1st, to be completed by October 1st.
    I would like you to supply our committee with the evidence 
of what you have done by October 1st to implement all these 
recommendations. And I appreciate that.
    Ms. Thorsen, it would be the same thing, if we can get by 
October 1st the implementation report from what you have been 
doing.
    Ms. Chambers, are you a political appointee in this 
position or are you a merit?
    Chief Chambers. Merit, sir.
    Mr. Bishop. So you will stay there until you decide to 
retire?
    Chief Chambers. Yes, sir.
    Mr. Bishop. We need a better job. This is not acceptable 
from those who are under you. And that's all there is. This 
report should never have come out because in 2003 your entity 
lost 133 guns. They found them in pawn shops in Georgia, a 
couple of them. This will not happen again. This should not 
happen again. It is your responsibility. Make sure it does not 
happen again.
    And, Mr. Jarvis, we will hold you accountable for that as 
well.
    Chief Chambers. You have my commitment, sir.
    Mr. Chaffetz. The gentleman yields back. We'll recognize 
the ranking member, Mr. Tierney, from Massachusetts.
    Mr. Tierney. Thank you.
    Mr. Jarvis, in this particular instance, following this 
report, have there been any identification of lost weapons?
    Mr. Jarvis. No, sir, there have not.
    Mr. Tierney. No indication of people finding them in pawn 
shops or anything else?
    Mr. Jarvis. No, sir.
    Mr. Tierney. Mr. Knox, you did a weapons accountability 
overview on your report and recommended that they have a better 
system of weapons accountability, correct?
    Mr. Knox. Yes, sir.
    Mr. Tierney. And you base that on best practices in the law 
enforcement field?
    Mr. Knox. Yes, sir.
    Mr. Tierney. And that's reflected in your recommendations?
    Mr. Knox. It is in fact.
    Mr. Tierney. Okay. Mr. Jarvis, you have looked at those 
eight recommendations, and you think they are reasonable?
    Mr. Jarvis. Yes and there are 10 actually, I looked at all 
ten.
    Mr. Tierney. And Ms. Chambers, you agree?
    Chief Chambers. I do, sir.
    Mr. Tierney. And you are in the process of trying to 
accommodate all of those 10 recommendations, correct?
    Chief Chambers. Some have already been completed. Many of 
the others are well on their way, sir.
    Mr. Tierney. And Mr. Knox, you have committed to having a 
constant overview of this progress?
    Mr. Knox. Yes, sir. As I stated in my opening remarks, we 
feel we must stay engaged and continue some reviews.
    Mr. Tierney. How will you do that?
    Mr. Knox. We will schedule reviews and inspections after we 
receive results from the National Park Service on the 
implementation of our 10 recommendations.
    Mr. Tierney. And if you feel that they're falling 
unreasonably behind the schedule for time you said you will 
notify the committees that are here today?
    Mr. Knox. Yes, sir, we will.
    Mr. Tierney. And neither Mr. Jarvis or Ms. Chambers have 
any difficulty with that at all; you're set on that process? Do 
you feel that each of you has the personnel that's competent to 
carry out these recommendations?
    Mr. Jarvis. Yes, and we have drawn from the Department of 
the Interior as well to assist us in that work.
    Mr. Tierney. And Ms. Thorsen, you are satisfied with that 
as well?
    Ms. Thorsen. Yes, sir.
    Mr. Tierney. Thank you all for your testimony. I yield 
back.
    Mr. Chaffetz. Thank you. We appreciate your attentiveness 
to this matter. We look forward to hitting those dates and 
those commitments that we have made, and the committee now 
stands adjourned.
    [Whereupon, at 11:55 a.m., the subcommittees were 
adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC] [TIFF OMITTED] 82717.004

[GRAPHIC] [TIFF OMITTED] 82717.005

[GRAPHIC] [TIFF OMITTED] 82717.006

[GRAPHIC] [TIFF OMITTED] 82717.007

[GRAPHIC] [TIFF OMITTED] 82717.008

[GRAPHIC] [TIFF OMITTED] 82717.009

[GRAPHIC] [TIFF OMITTED] 82717.010

                                 <all>

</pre></body></html>
